<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 114-495]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-495

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION


                                     

                                S. 2524
 
                                S. 2533
 
                                S. 2616
 
                                S. 2902
 
                                S. 2907
 
 


                               __________

                              MAY 17, 2016

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-987                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Subcommittee on Water and Power

                           MIKE LEE, Chairman
JEFF FLAKE                           MAZIE K. HIRONO
JOHN BARRASSO                        RON WYDEN
JAMES E. RISCH                       BERNARD SANDERS
STEVE DAINES                         AL FRANKEN
CORY GARDNER                         JOE MANCHIN III
ROB PORTMAN                          ANGUS S. KING, JR.

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Christopher Kearney, Budget Analyst and Senior Professional Staff 
                                 Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Melanie Stansbury, Democratic Professional Staff Member
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Lee, Hon. Mike, Subcommittee Chairman and a U.S. Senator from 
  Utah...........................................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2

                               WITNESSES

Feinstein, Hon. Dianne, a U.S. Senator from California...........     3
McCain, Hon. John, a U.S. Senator from Arizona...................   140
Lopez, Hon. Estevan, Commissioner, Bureau of Reclamation, U.S. 
  Department of the Interior.....................................   142
Weldon, Leslie, Deputy Chief, National Forest System, U.S. 
  Department of Agriculture......................................   159
Quinn, Dr. Timothy, Executive Director, Association of California 
  Water Agencies.................................................   167
Keppen, Dan, Executive Director, Family Farm Alliance............   175
Long, Bill, President, Board of Directors, Southeastern Colorado 
  Water Conservancy District.....................................   188
Buschatzke, Thomas, Director, Arizona Department of Water 
  Resources......................................................   199
Ziemer, Laura, Senior Counsel and Water Policy Advisor, Trout 
  Unlimited......................................................   209

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alameda County Water District:
    Letter for the Record........................................   105
Alameda County Flood Control and Water Conservation District, 
  Zone 7:
    Letter for the Record........................................   107
Alaska Longline Fishermen's Association:
    Letter for the Record........................................   265
American Bird Conservancy, et al.:
    Letter for the Record........................................   267
American Rivers:
    Letter for the Record........................................   271
American Rivers, et al.:
    Letter for the Record........................................   274
American Sportfishing Association:
    Letter for the Record........................................   276
Association of California Water Agencies:
    Letter for the Record........................................   104
Bennet, Hon. Michael:
    Statement for the Record.....................................   278
Buschatzke, Thomas:
    Opening Statement............................................   199
    Written Testimony............................................   201
CalChamber Advocacy:
    Article entitled ``CalChamber Backs Renewed Effort on Federal 
      Water Bill'' dated February 26, 2016.......................   118
California Citrus Mutual:
    Press Release dated February 10, 2016........................   116
California Farm Bureau Federation:
    Press Release dated February 10, 2016........................   115
California Fresh Fruit Association:
    Letter for the Record........................................   102
California Natural Resources Agency:
    Press Release dated February 10, 2016........................   114
California Water Service:
    Letter for the Record........................................    98
Central Contra Costa Sanitary District:
    Letter for the Record........................................    96
City of Benicia (California):
    Letter for the Record........................................    94
City of Indio (California):
    Letter for the Record........................................    92
City of Palo Alto (California):
    Letter for the Record........................................    90
City of Pismo Beach (California):
    Letter for the Record........................................    89
City of Pleasanton (California):
    Letter for the Record........................................    88
City of San Buenaventura (Ventura) Water Department:
    Letter for the Record........................................    82
City of San Diego (California):
    Letter for the Record........................................    86
City of South Gate (California):
    Letter for the Record........................................    85
City of Turlock (California):
    Letter for the Record........................................    83
Coachella Valley Water District:
    Letter for the Record........................................    80
Coastal Trollers Association:
    Letter for the Record........................................   281
Colorado River Board of California:
    Letter for the Record........................................   283
Colorado Water Conservation Board, Colorado Department of Natural 
  Resources:
    Statement for the Record.....................................   190
Costa, Hon. Jim:
    Press Release dated February 10, 2016........................   112
Cucamonga Valley Water District:
    Letter for the Record........................................    79
Delta Diablo:
    Letter for the Record........................................    78
Desert Water Agency:
    Letter for the Record........................................    77
Dublin San Ramon Services District:
    Letter for the Record........................................    75
Ducks Unlimited, et al.:
    Letter for the Record dated February 5, 2016.................    71
    Letter for the Record dated May 12, 2016.....................    73
East Bay Municipal Utility District:
    Letter for the Record........................................    70
Eastern Municipal Water District:
    Letter for the Record........................................    69
Feinstein, Hon. Dianne:
    Opening Statement............................................     3
    Chart entitled ``5 years of California drought''.............     4
    California Long-Term Provisions for Water Supply and Short-
      Term Provisions for Emergency Drought Relief Act (S. 2533):
        Support for S. 2533--List of Letters, Press Releases and 
          Op-Eds.................................................     6
        Water Supply Increase and Improvement Provisions.........   124
    Written Statement............................................   129
Garamendi, Hon. John, et al.:
    Letter for the Record........................................     9
Garamendi, Hon. John:
    Letter for the Record........................................    11
Glenn-Colusa Irrigation District:
    Letter for the Record........................................    67
GoldenGate Salmon Association:
    Initial Analysis of S. 2533..................................   286
Goleta Water District:
    Letter for the Record........................................    65
Indio Water Authority:
    Letter for the Record........................................    64
International Union of Operating Engineers:
    Letter for the Record........................................    63
Irvine Ranch Water District:
    Letter for the Record........................................    62
Keppen, Dan:
    Opening Statement............................................   175
    Written Testimony............................................   177
    Responses to Questions for the Record........................   253
Las Virgenes Municipal Water District:
    Letter for the Record........................................    61
Las Virgenes--Triunfo Joint Powers Authority:
    Letter for the Record........................................    60
League of California Cities:
    Letter for the Record........................................    59
Lee, Hon. Mike:
    Opening Statement............................................     1
Long, Bill:
    Opening Statement............................................   188
    Written Testimony............................................   194
Lopez, Hon. Estevan:
    Opening Statement............................................   142
    Written Testimony............................................   144
    Responses to Questions for the Record........................   242
Mape's Ranch and Lyons' Investments:
    Letter for the Record........................................   121
McCain, Hon. John:
    Opening Statement............................................   140
Merced County Association of Governments:
    Letter for the Record........................................    56
(The) Metropolitan Water District of Southern California:
    Letter for the Record........................................    12
Monterey County Board of Supervisors:
    Letter for the Record........................................    54
Monterey County Water Resources Agency:
    Letter for the Record........................................    52
Monterey Peninsula Water Management District:
    Letter for the Record........................................    51
Monterey Regional Water Pollution Control Agency:
    Letter for the Record........................................    49
North Bay Water Reuse Authority:
    Letter for the Record........................................    47
Northern California Water Association:
    Letter for the Record........................................    45
Orange County Sanitation District:
    Letter for the Record........................................    44
Orange County Water District:
    Letter for the Record........................................    43
Pacific Coast Federation of Fishermen's Associations:
    Letter for the Record........................................   288
Pacific Fishery Management Council:
    Letter for the Record........................................   291
Quinn, Dr. Timothy:
    Opening Statement............................................   167
    Written Testimony............................................   169
    Responses to Questions for the Record........................   250
Reclamation District 108 (Grimes, California):
    Letter for the Record........................................    41
Redwood City, California:
    Letter for the Record........................................    40
Rincon Water:
    Letter for the Record........................................    38
San Diego County Water Authority:
    Letter for the Record........................................    36
San Joaquin Valley Water Infrastructure Authority:
    Letter for the Record........................................    34
San Jose Water Company:
    Letter for the Record........................................    32
Santa Clara Valley Water District:
    Letter for the Record dated January 22, 2016.................    27
    Letter for the Record dated April 8, 2016....................    29
Sonoma County Water Agency:
    Letter for the Record........................................   295
Tehama-Colusa Canal Authority:
    Letter for the Record........................................    25
Valley Industry and Commerce Association:
    Letter for the Record........................................    24
Valley Sanitary District:
    Letter for the Record........................................    22
Victor Valley Wastewater Reclamation Authority:
    Letter for the Record dated February 8, 2016.................    20
    Letter for the Record dated February 24, 2016................    21
Walnut Valley Water District:
    Letter for the Record........................................    19
Water Agencies:
    Press Release dated February 10, 2016........................   110
Water Replenishment District of Southern California:
    Letter for the Record........................................    18
Weldon, Leslie:
    Opening Statement............................................   159
    Written Testimony............................................   161
    Responses to Questions for the Record........................   247
West Bay Sanitary District:
    Letter for the Record........................................    16
West Coast Salmon Fishing Industry and Related Businesses:
    Letter for the Record........................................   297
Western Governors' Association:
    Letter for the Record........................................   219
Western Growers:
    Press Release for the Record.................................   108
Western Municipal Water District's Board of Directors:
    Letter for the Record........................................    15
Western Recycled Water Coalition, et al.:
    Letter for the Record........................................   100
(The) Wilderness Society:
    Letter for the Record........................................   303
Wyden, Hon. Ron:
    Opening Statement............................................     2
Yuba County Water Agency:
    Letter for the Record........................................    13
Ziemer, Laura:
    Opening Statement............................................   209
    Written Testimony............................................   211
    Supplemental Testimony and Responses to Questions for the 
      Record.....................................................   260

                               __________
The text for each of the bills which were addressed in this 
subcommittee hearing can be found on the committee's website at: 
https://www.energy.senate.gov/public/index.cfm/hearings-and-business-
meetings?ID=A7AE5EAB-EB16-4CAF-A918-68A1A5D5BEB7.

 
                          PENDING LEGISLATION

                              ----------                              


                         TUESDAY, MAY 17, 2016

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:13 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Mike Lee, 
Chairman of the Subcommittee, presiding.

              OPENING STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Welcome. It is a pleasure to have you here--
form the basis of a drought legislation package aimed at 
California and at various other Western States.
    Although the final details of the legislative package 
remain in flux, I would like to highlight two concerns that are 
most important to my home State of Utah. First, any drought 
bill must be fully paid for. Two, it must contain the 
protections provided in the Water Rights Protection Act. I will 
discuss each of these in turn briefly.
    A little over a year ago, the U.S. Department of 
Agriculture designated Sanpete County in central Utah as a 
primary natural disaster area due to damages and losses caused 
by the recent drought. Farmers and ranchers in Carbon, Emery, 
Juab, Millard, Sevier, and Utah Counties also qualify for 
natural disaster assistance.
    I know Utah is not alone in fighting drought. California, 
New Mexico, Wyoming, Arizona, and Colorado are also dealing 
with similar problems, but simply because the drought crisis 
exists and is painful does not mean that it should be used to 
expand federal obligations, or at least to do so irresponsibly. 
Any new or expanded government spending authorization should be 
offset with Bureau of Reclamation prepayment revenue or 
spending reductions.
    We have a saying of the West: Water is for fighting. A 
hundred years ago, water disputes sometimes ended in bloodshed, 
now they end in years of litigation.
    It is precisely because of these tensions that federal 
regulators should be prohibited from blackmailing state and 
private water users into relinquishing their water rights.
    In 2014, the Forest Service proposed a new regulation that 
would require water rights to be transferred to the Federal 
Government as a condition for obtaining permits needed to 
operate 121 ski resorts across federal lands. Later, the Forest 
Service wisely withdrew this regulation.
    Included in S. 2902 is language that would protect state-
issued water rights by prohibiting the Departments of Interior 
and Agriculture from requiring a transfer or limitation of 
water rights as a condition precedent for obtaining a permit to 
use federal land.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Senator Lee.
    We are glad to have our witnesses here today.
    Suffice it to say, what this is about is we are facing a 
water emergency in the West. Last year, the American West 
experienced an unprecedented drought with record-breaking 
temperatures and low snow pack and rainfall. This drought 
impacted communities. It impacted agriculture, industry, 
wildlife, and the environment.
    Conditions may be a bit better now with El Nino, but we are 
still stuck in the proverbial woods because conditions are 
expected to continue throughout much of the West in coming 
years. As a result, communities across the country face 
significant water security shortages and are trying to respond 
to these dwindling supplies.
    Managing our water resources for the future means 
developing smart and collaborative solutions that help people 
and the environment. Creative approaches that can end water 
wars and empower communities on the ground are like those in 
the Klamath Basin in my home state and the Yakima Basin in 
Washington.
    In Oregon, we have experienced drought disasters for 
several years now, and we are gearing up for another dry year. 
Extreme drought conditions impact farming, ranching, fish, 
wildlife, and wildfire.
    Chair Murkowski and the Ranking Member, Senator Cantwell, 
are working together to look for ways--and I think Senator 
McCain and Senator Feinstein know about this--to also better 
fund prevention of fire and make existing dollars stretch 
further than we have in the past.
    With the traditional big recreation season about to begin, 
I would also like to note that drought significantly limits 
opportunities for people to get outside, recreate, and enjoy 
the West and boost our recreation economy. You cannot paddle 
down a river when there is barely enough water to float a 
kayak, and you cannot hike through a forest when the dry 
conditions have sparked a wildfire.
    The recreation economy has the potential to be a major 
economic engine throughout the West. I recently introduced 
legislation, the RNR bill, which stands for Recreation, Not 
Red-Tape. Because we have witnesses here today, I will be 
talking more about that later this week.
    The problems in the Klamath Basin are especially on my mind 
today because they have been made worse by years of dry 
conditions that decrease supply and increase the tensions, but 
we were able to get a diverse group of community leaders 
together to find a sustainable solution and we are in a 
position now where we can turn a corner and start making real 
progress.
    The work that groups like Trout Unlimited and the Family 
Farm Alliance have done in the Klamath Basin is commendable. I 
bring this up simply by way of saying that these collaborative 
coalitions, and you see them around the country, they are doing 
the heavy lifting, but they can and do work. The Klamath Basin, 
in fact, proves that that is the case.
    I have had a number of conversations with my colleague and 
friend, Senator Feinstein, because she has been doing yeoman's 
work trying to make sure that the water challenges in 
California are dealt with. Her bill to address the drought is 
of special interest to our state for a variety of reasons, but 
one that I have not really learned about until recently is the 
potential impact on the health and sustainability of Oregon and 
Northwest salmon fisheries. I am looking forward to getting 
more information on those issues in the days ahead so that I 
can work closely with Senator Feinstein and our colleagues to 
make sure that Oregon fisheries will be able to benefit from 
drought management decisions that are made in California, 
number one, and that we avoid negative impacts on our 
fisheries.
    Let me close with one last point. Having worked with 
Senator Feinstein and Senator McCain on a lot of these natural 
resource issues in the past, I think we understand that nobody 
gets everything they want when you are dealing with tough 
resources issues. Nobody gets everything they believe they 
ought to have. The question is, can you get enough in order to 
strike a balance between the various interests that we all care 
about?
    I look forward very much to working with Senator Feinstein 
and Senator McCain, because we have traveled those roads 
before, and we have been able to navigate tough resources 
issues because we built around those kinds of principles. I 
look forward to our witnesses and working with both of them.
    Senator Lee. Thank you, Senator Wyden.
    We have two panels of witnesses today. Our first panel 
consists of Senator Feinstein from California and Senator 
McCain from Arizona. We will hear from each of them now.
    Senator Feinstein, we will start with you.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman, Senator 
Wyden, and Senator Manchin. Thank you very much for this 
opportunity.
    I would like to mention that there is a gentleman sitting 
behind me who is going to testify on the next panel. He is Tim 
Quinn. He is the Executive Director of the Association of 
California Water Agencies. They represent 430 public agencies. 
They are responsible for 90 percent of the water delivered 
throughout California. I think he brings an important 
perspective.
    Despite this most recent El Nino, California still faces 
severe drought conditions now going on five consecutive years. 
A picture is worth a thousand words.
    [The information referred to follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    
    If you look at this chart, and maybe if you tilt it just a 
little bit this way, you will see how dry California has been 
every week since the drought began in 2010. It shows the 
drought's progression from abnormally dry conditions in yellow, 
to severe drought in orange, and to extreme drought in red, and 
finally exceptional drought in the dark red color. I think it 
says it all.
    The sustained presence of exceptional drought, the most 
severe category since 2014, is alarming and illustrates 
California's emergency situation. This is also highlighted by 
our inadequate infrastructure.
    I think most people do not realize that the two big water 
conveyance projects, the Central Valley Project and the State 
Water Project--the State Water Project was built for the cities 
and the other project was built essentially by farmers for 
farmers. It was designed when California was 16 million people. 
Well, we are now 40-plus million people, and the infrastructure 
has not been significantly expanded.
    So this bill is the product of two years of work, 28 
drafts, 43 amendments to the last draft. It has been circulated 
to Republicans, Democrats, environmental groups, water 
districts, cities, rural communities, fishermen, and farmers.
    I would like to add to the record, if I may, Mr. Chairman, 
letters of 104 agencies and individuals throughout the state 
supporting the bill you have before you.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    The House has passed a bill that I do not believe, 
candidly, can pass the Senate, so our goal has been to craft 
legislation that could pass the Senate and then, hopefully, 
will be able to conference with the House.
    The short-term provisions for emergency drought relief 
apply only to California. The long-term provisions apply to all 
17 Reclamation States West-wide, and some provisions, such as 
WaterSMART Reclamation grant programs and RIFIA, to Alaska and 
Hawaii as well.
    I am skipping, to shorten this.
    Data from Reclamation so far suggests that we have not seen 
flows this low in the Colorado River Basin for almost 1,000 
years. While the basin states are doing a tremendous job to 
work together in confronting the drought, we have to reach 
consensus prior to congressional action, and there appears to 
be no immediate end in sight.
    The state has estimated that 150 percent of average 
snowpack in March is necessary to end the drought. We ended up 
with about 80 percent the end of March, so this means the 
drought is going to continue through next year.
    The bill before you does not violate the Endangered Species 
Act (ESA) or the biological opinions or include any operational 
mandates for the agencies. The bill, we think, accomplishes the 
dual roles of maximizing water supplies and protecting the 
environment.
    To accomplish these goals, the bill's short-term provisions 
include increased operational flexibility to deal with the 
drought right now, and the long-term provisions invest in 
infrastructure and environmental restoration throughout the 
West. For example, for long-term, the provisions reshape how 
the Federal Government assists states in coping with drought. 
We provide and identify 110 recycling projects and 25 desal 
projects that could produce enough water in California to 
supply over 1 million acre-feet of water for 2.7 million homes. 
We increase WaterSMART funding by $150 million for projects to 
improve a range of water storage and water supply management. 
We fund the Reclamation Infrastructure Financing and Innovation 
Act, or RIFIA, at $200 million. We update Army Corps dam 
operations to increase water supply while reducing flood risk. 
We have $600 million in it for water storage projects to hold 
water in wet years for use in dry years, and the 17 states plus 
Alaska and Hawaii are all eligible; $560 million for recycling 
and water efficiency to better use the water that we do have; 
and $100 million for the desalinization plants.
    The bill's short-term provisions do not contain mandates. 
Rather, they provide that agencies base water operations on 
science, not intuition or guesswork.
    It is also important to note the short-term provisions last 
two years or the duration of the Governor's drought 
declaration, whichever is longer. For that brief time, the bill 
provides for more operational flexibility in the two big 
conveyance systems I spoke of, and a more precisely managed 
system for which we also include funding.
    For example, the short-term provisions allow for increased 
pumping during winter storms to capture peak flows, and it 
eliminates the automatic so-called payback of water supply so 
that agencies can keep the water they gain from the winter 
storms.
    Other examples of the short-term are maintaining a one-for-
one ratio for water transfers through the spring and early 
summer to ensure that 100 percent of the water identified for 
transfer goes to communities that need it most, and the bill 
extends the time period for transfers by five months stretching 
supplies during the critical growing season.
    With the chair's permission, I would like to enter into the 
record eight ways in which the water bill provides supplies in 
the short-term, without going into them precisely.
    Senator Lee. Without objection.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Feinstein. Thank you, Mr. Chairman.
    We have worked with relevant federal and state agencies for 
two years now to make sure this bill can produce real water in 
a manner consistent with the Endangered Species Act and 
biological opinions.
    To remove any doubt, we included a simple, clear savings 
clause to make it crystal clear that the bill is consistent 
with environmental laws and biological opinions. The bill 
provides $1.3 billion in authorizations, all of which are 
offset in two ways.
    First, the Bureau of Reclamation would identify, with 
public input, projects appropriate for deauthorization. This 
would reduce existing authorizations between $1 billion and 
$1.7 billion. These are all authorizations that have existed 
for a substantial period of time and have not been utilized.
    The second offset increases federal revenues by $632 
million over 10 years by inducing Western water contractors to 
accelerate their debt payments.
    So this is just a very brief summary of this bill, Mr. 
Chairman and Ranking Member Wyden.
    And thank you, Chairman Flake. I am sorry you missed this, 
but I know you are a quick study, so thank you very much.
    I look forward to today's discussion and to working with 
all of you to get a bill signed into law. Thank you very much.
    Senator Lee. Thank you, Senator Feinstein. Your documents 
will be admitted into the record, without objection.
    [The prepared statement of Senator Feinstein follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
 
 
    Senator Lee. Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Senator Lee, Senator Flake, Senator Wyden, 
Senator Manchin, thank you.
    You mentioned, Senator Lee, that, in the West, water is for 
fighting. You left out Mark Twain said, ``In the West, water is 
for fighting; whiskey is for drinking.'' That was his complete 
statement, for the record.
    Senator Lee. My apologies. That was the Mormon in me just 
editing that for television.
    [Laughter.]
    Senator McCain. My predecessor, Barry Goldwater, once said 
that in Arizona, we have so little water that the trees chase 
the dogs. I would not want to enter that into the record.
    But anyway, I am proud to cosponsor the legislation, the 
Western Water Supply and Planning Enhancement Act. I thank 
Senator Flake for his leadership on this piece of legislation. 
I want to thank our colleagues, Senator Heller, Senator 
Barrasso, Senator Daines, and Senator Risch.
    I am grateful that the Subcommittee will receive testimony 
from Mr. Tom Buschatzke, the Director of the Arizona Department 
of Water Resources. Tom is one of Arizona's foremost experts on 
water policy, and I applaud his leadership and that of our 
Governor, Doug Ducey.
    I believe water and fire are the defining environmental 
issues of the 21st century. Both issues are connected. 
Decreased levels of rain runoff and snowmelt have stressed our 
water supplies and degraded the ecosystems of our fire-prone 
forests.
    My home State of Arizona, like much of the West, is coping 
with its 16th consecutive year of drought, and the drought is 
taking its toll. According to the U.S. Geological Service, 
treasured rivers in my home state, like the Verde River and the 
free-flowing San Pedro River, could run dry within the next 80 
years.
    Mr. Chairman, 80 percent of our drought-stressed forests in 
Arizona have been consumed by wildfire in the last 20 years. 
You can do the math and figure out what is going to happen to 
the national forests in the State of Arizona.
    This is a critical, crucial, compelling issue, and it is 
time we sat down together, I would say to Senator Feinstein, 
and I thank Senator Wyden for his continued efforts at 
cooperation, to address this issue.
    If water levels in Lake Mead drop below the 1,075-foot 
mark, the Interior Department will trigger cutbacks in Colorado 
River water for the basin states. Due to Arizona's junior water 
rights, a shortage would impact water supplies for more than 
five million people across Phoenix, Tucson, and Yuma.
    Today, there is 50 percent likelihood that the first round 
of cutbacks will occur in 2018. Arizona planned for this 
eventuality and will withstand these initial shortages because 
of investments in conservation, reservoir construction, and 
groundwater banking. But with Lake Mead levels at their lowest 
since it was filled, there is no question that deeper shortages 
are looming.
    The United States will pay a profound environmental and 
economic price if greater attention and resources are not 
devoted to this issue.
    The bill we propose is a combination of our top strategies 
for curtailing the drought at the federal level. Among other 
things, the legislation proposes more equitable water storage 
arrangements for states whose proactive conservation keeps 
water in Lake Mead. We also propose to give the Forest Service 
expedited authorities for fire-prevention thinning near 
reservoirs. We need to thin our forests, Mr. Chairman. We need 
to thin our forests. Anyone who has ever flown over a forest 
fire, as I have, and watched trees explode because of the fuel 
that has built up around those forests over many, many years 
knows that we have to thin our forests.
    We have to propose to give the Forest Service expedited 
authorities for that thinning near reservoirs to guard against 
toxic ash runoff.
    The bill would develop a regional plan to eradicate the 
non-native salt cedar tree. Each salt cedar tree is estimated 
to consume about 200 gallons of water a day. I repeat, one salt 
cedar tree consumes about 200 gallons of water a day. It is all 
up and down our rivers and the Colorado River, as the Chairman 
well knows. The Central Arizona Project (CAP) estimates that 
removing salt cedar, replanting with native vegetation, and 
that second part of the equation is critical, like cottonwood 
and willows, could save up to 860,000 acre-feet of water across 
the lower basin. I repeat, 860,000 acre-feet. I have seen salt 
cedar removal projects work in places like the Yuma Crossing 
National Heritage Area, where only 400 acres of salt cedar 
stretching two stories high were restored as wetlands habitat.
    Our bill would augment the work of the Kazakhstan salt 
cedar beetle. Not many Americans are familiar with the 
Kazakhstan salt cedar beetle. This wonderful little beetle, the 
best thing I have ever heard of that might have come from 
Kazakhstan, is now eating its way down the Colorado River and 
killing the salt cedar. That is the good news. The bad news is, 
Mr. Chairman, we are not replacing the dead salt cedar. But God 
bless the Kazakhstan salt cedar beetle.
    Some biologists predict that the beetle will populate most 
of the Colorado River corridor by 2020. I believe it is prudent 
to begin planning for the beetles' presence and to move 
aggressively on these and other innovative water strategies 
covered under our bill.
    Mr. Chairman, I do not want to take up much more time of 
the Committee. I believe that the United States of America and 
those of us who are seeing a threat to the lives and lifestyle 
of our children and our grandchildren should get together and 
fix this problem. We have not faced a problem that we cannot 
fix. But right now, this threat in the 14th or 15th year of a 
drought is a direct threat to our lives and that of our 
children and our grandchildren. I think we owe it to them to 
act in a most constructive fashion.
    I would like to again ask California to return the water 
they have stolen from us.
    [Laughter.]
    Thank you, Mr. Chairman.
    Senator Lee. I am sure Senator Feinstein will arrange that 
very quickly.
    Thank you very much, both of you, for being here and for 
your testimony today.
    I would like to now ask those participating in our second 
panel to come forward. Specifically, Commissioner Lopez, Deputy 
Chief Weldon, Mr. Quinn, Mr. Keppen, Mr. Long, Mr. Buschatzke, 
and Ms. Ziemer, if you can come forward to the witness table.
    As they are coming forward, I will be introducing them.
    We are going to begin this panel by hearing from the 
Honorable Estevan Lopez, the 22nd Commissioner of the Bureau of 
Reclamation. After Commissioner Lopez, we will have Leslie 
Weldon of the USDA Forest Service, who has served as the Deputy 
Chief for the National Forest System since 2011. We welcome you 
back to the Committee, Deputy Chief Weldon. Then we will have 
Tim Quinn, the Executive Director of the Association of 
California Water Agencies. Following Mr. Quinn, we will have 
Dan Keppen before the Committee once again. Mr. Keppen is the 
Executive Director of the Family Farm Alliance and testified at 
the Committee's last legislative hearing on drought. Then we 
will have Bill Long, the President of Southeastern Colorado 
Water Conservancy District. After him, we will have Tom 
Buschatzke, who was before the Committee last summer to discuss 
drought. Tom is the Director of the Arizona Department of Water 
Resources and has been a powerful voice for Arizona's water 
interests. Thank you for being here, Tom, and for your 
leadership on water issues in Arizona. Finally, we will have 
Laura Ziemer, the Senior Counsel and Water Policy Advisor for 
Trout Unlimited.
    Mr. Lopez, we will start with you.

        STATEMENT OF HON. ESTEVAN LOPEZ, COMMISSIONER, 
         BUREAU OF RECLAMATION, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Lopez. Chairman Lee, Ranking Member Wyden, and members 
of the Subcommittee, I am Estevan Lopez, Commissioner of the 
Bureau of Reclamation. Thank you for the opportunity to appear 
before the Subcommittee to provide the Department's view on 
four of the five bills before the Subcommittee today.
    I am accompanied by John Bezdek, who many of you know, and 
who serves as our Counselor to the Deputy Secretary.
    My written statements have been submitted for the record, 
so I will summarize those very briefly in the interest of time.
    To begin, S. 2533 by Senator Feinstein is a multi-part bill 
aimed at mitigating the extreme drought experienced for the 
past four years in California. As you know, the Department has 
testified on prior versions of the bill before this Committee, 
and we are happy that the Senator and her staff have worked 
very closely with us, particularly with Mr. Bezdek, to address 
technical issues and refine the bill.
    This collaborative process has produced a good result, and 
we believe that the bill before the Subcommittee today would 
improve the water supply situation in California while being 
protective of the environment, endangered species, and the very 
important salmon fishery that migrates through the Sacramento-
San Joaquin Delta.
    I know that there are some elements of the bill that have 
created concern for some parties, and we understand those 
perspectives. We are glad to continue working with Senator 
Feinstein in the process she has employed to date on any of 
these issues. But on balance, we are confident and comfortable 
with the measured approach contained in S. 2533.
    Next, S. 2616 by Senator Gardner would modify certain cost-
sharing and revenue provisions relating to the Arkansas Valley 
Conduit in Colorado. This is a project with a long history. The 
Bureau of Reclamation has been able to maintain a certain level 
of funding to complete preconstruction work that needs to be 
done. Reclamation and the Southeastern Colorado Water 
Conservancy District began discussions last year to develop an 
approach for funding construction, which is an important step 
toward meeting the drinking water needs of six Colorado 
counties where water contains high levels of naturally 
occurring radium and uranium.
    S. 2616 aims to help advance long-awaited construction of 
the conduit by authorizing miscellaneous revenues to the 
district to enable repayment of loans from the Colorado Water 
Conservation Board (CWCB). While the Administration supports 
the goals of assisting non-federal sponsors with access to non-
federal capital for the construction of projects, we want to 
continue to work with the sponsors and local communities on how 
we will move forward with construction. Our budget is under 
great pressure, and we are encouraged by the efforts of Bill 
Long and the Conservancy District to reach out to the state to 
make possible a loan to begin funding.
    S. 2902 by Senator Flake is another multi-part bill with 
several provisions, some of which are drought-related and 
others which are more indirect relationship to drought. As 
stated in my written testimony, many of the provisions of S. 
2902 have been testified on separately by the Department at 
prior hearings. On balance, the bill contains some elements we 
support and others we do not, and we are glad to explore that 
further with the Subcommittee.
    Lastly, S. 2907 by Senator Reid would enable continuation 
of System Conservation Pilot Program underway on the Colorado 
River that aims to address the prolonged drought on the basis 
of facilitating greater storage in Lakes Mead and Powell. We 
support this program in our budget request and appreciate 
Senator Reid's support as well as that of the stakeholders here 
today who have committed their own resources to the program as 
well.
    This concludes my statement. I am pleased to answer 
questions at the appropriate time, and I appreciate the 
Subcommittee's consideration for my travel commitment later 
this afternoon.
    [The prepared statement of Mr. Lopez follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Senator Lee. Thank you, Commissioner.
    Deputy Chief Weldon.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
             SYSTEM, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you, Chairman Lee, and members of the 
Subcommittee, for the opportunity to provide the views of the 
U.S. Department of Agriculture regarding S. 2902, the Western 
Water Supply and Planning Enhancement Act, and S. 2524, the 
Bolts Ditch Access and Use Act.
    Accept my apology for some of the generalness of my 
remarks. We would like to have additional time to fully analyze 
the effects of the bill. That said, we appreciate and share the 
strong interest in ensuring resilient, sustainable flows of 
water and restoring health to forested watersheds.
    As we have asserted at previous hearings on similar 
matters, I emphasize that all the efforts of the Forest Service 
regarding the stewardship of water resources are conducted to 
help ensure that abundant clean water is available for the 
public's use and enjoyment. Whether it is to make snow for 
downhill skiing, provide for world-class fishing experiences, 
sustain wildlife or domestic animals, or to maintain community 
and agricultural water supplies, everything is done for the 
public value.
    Watersheds have long been used and recognized as basic 
building blocks of sound resource management. Beginning in 1897 
through the Organic Administration Act, Congress directed the 
Forest Service to manage the National Forest System lands to 
secure favorable flows of water conditions for multiple public 
uses and benefits that sustain economies and maintain 
communities across the nation today.
    Since then, Congress has provided additional legislative 
direction to the Forest Service regarding our role to sustain 
water, watersheds, and the management of those resources, 
direction that is even more critical today as we face ongoing 
drought, a longer fire season, and other consequences of a 
changing climate.
    We recognize the fundamental role of states in education, 
adjudication of water rights according to state laws, and 
assert no intention to exceed statutory authorities granted to 
us in this or any other aspect of our mission. USDA believes 
that the existing framework of state and federal statutes 
adequately provide for the protection of privately-held water 
rights in balance with public service and natural resources 
conservation work of the Forest Service and that no additional 
legislation to ensure this balance is needed.
    As an example of our success in working within this 
framework, we point to our response to concerns from the ski 
industry, states, and others regarding our initial draft of a 
watershed clause for ski area special use permits. By working 
closely and collaboratively with those most concerned, we were 
able to craft a final water clause for ski area permits that 
recognizes and protects the value of privately held water 
rights as assets and also ensures the availability of 
sufficient water for current and future ski area operations.
    Another example is our response to concerns regarding 
groundwater. After listening to those concerns following the 
publication of a proposed directive in 2014, the Forest Service 
acknowledged the concerns in our approach, stopped all work on 
that directive, and will not move forward with that original 
proposal. Rather, we have committed to engaging with states, 
tribes, and citizens, to understand and collaboratively address 
their concerns.
    Should we choose to move forward with a new directive in 
the future, it would only be after fully engaging with those 
interested and affected in an open and transparent manner to 
ensure that we get it correct.
    We also agree with the need to protect critical water 
supply watersheds. This type of work is fundamental to our 
conservation and resource stewardship mission, and will become 
even more important into the future.
    Again, while we cannot comment on specifics of S. 2902 as 
of yet, as a general matter, we appreciate efforts to provide 
planning tools that incentivize collaboration and improve 
efficiency as long as they have strong protections to ensure 
adherence to important and fundamental environmental laws. We 
ask to continue to work with the Committee on these aspects.
    Finally, on S. 2524, we understand this bill seeks to 
resolve issues associated with the use and maintenance of the 
Bolts Ditch near the town of Minturn, Colorado. We acknowledge 
that this bill has the support of Eagle County, the Colorado 
River District, and local and national wilderness advocacy 
organizations, and USDA does not oppose 2524.
    I appreciate the opportunity to be here today and look 
forward to answering any questions you may have. Thank you.
    [The prepared statement of Ms. Weldon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Senator Flake [presiding]. Thank you.
    Dr. Quinn.

STATEMENT OF DR. TIMOTHY QUINN, EXECUTIVE DIRECTOR, ASSOCIATION 
                  OF CALIFORNIA WATER AGENCIES

    Dr. Quinn. Thank you, Senator Flake, members of the 
Subcommittee.
    My name is Tim Quinn. I am the Executive Director of the 
Association of California Water Agencies (ACWA). I am going to 
forgo my credentials or those of my association and get right 
to the main point.
    Like Senator Feinstein, ACWA, by its very nature, 
represents a statewide constituency. I represent 440 member 
agencies that cover the entire State of California--ag, urban, 
North, South, et cetera.
    I can tell you in one sentence why that diverse coalition 
so strongly supports S. 2533: because we believe that 
legislation moves the Federal Government into closer alignment 
with key California policies both in the near-term as we are 
dealing with the current drought and in the long-term as we 
strive to be drought-resilient for future droughts.
    I have been actively involved in California water 
management for 35 years. Over that period, we have evolved a 
couple simple themes that we believe work. One of those themes 
we call co-equal goals. What that means in simple terms is both 
water supply reliability and the environment matter in 
California water policy, and we try to operate in ways that 
benefit both of those.
    The second major theme is to use comprehensive solutions. 
If you limit the number of tools that are available to you, you 
will have to play off the environment against the water supply 
or vice versa. So we operate under something called the 
California Water Action Plan, which calls for a very 
comprehensive set of tools.
    To accomplish either of those objectives, coequal goals or 
comprehensive solutions, we need a partnership with the Federal 
Government that, quite frankly, we do not think we enjoy today. 
Too often, federal agencies are approaching us from the 
Endangered Species Act, looking at single species, single 
tools. We wind up with major negative impacts on our water 
supply that we do not think is doing any good for the 
environment.
    Things need to change. We think the Senator's S. 2533 moves 
in the right direction.
    In the near-term, S. 2533 requires the federal agencies to 
put a higher weight on water supply, as they are going through 
applying their discretion. They do have a lot of discretion. 
Currently, we do not think water supply gets nearly enough 
weight in their considerations. So that provision alone is 
important to us in California, moving the Federal Government in 
a direction where they are thinking more in terms of coequal 
goals than just the most vulnerable species under the 
Endangered Species Act.
    To accomplish those near-term objectives, the Senator's 
bill uses various tools to get more efficiency out of the 
system. She mentioned opportunistic pumping. When the winter 
storms hit, be ready and have a place to put that water. 
Similarly, the bill calls for real-time operation of the 
system.
    I would be glad to answer any questions. It is much more 
efficient than the static rules we have now where pumping is 
determined regardless of actual conditions in the system. Real-
time operation is an order of magnitude better way to operate 
the system.
    Lastly, and I will use this as an example of water supply 
benefits in the near-term, S. 2533 tries to open up the water 
market in California between sellers in Northern California and 
buyers in Southern California. Water marketing is an important 
tool in our state, but most of the suppliers are above our 
Delta and most of our buyers are below the Delta.
    This year, because of what we regard to be artificial 
restrictions on the ability to move water from willing sellers 
to willing buyers, I can tell you exactly how much water will 
be moved from above the Delta to below the Delta in California 
this year. The answer is zero, not a single drop, because the 
Endangered Species Act and the need to meet contract demands 
have closed all the windows that used to be open for moving 
water in the California market.
    I am an economist by training. I understand the power of 
market forces, and I believe when you combine that with real-
time operations and opportunistic pumping of water flows, there 
are hundreds of thousands acre-feet of water available under 
the short-term provisions of Senator Feinstein's bill, which 
tells you why we are so anxious to see it move forward.
    In the long-term, the bill makes the Federal Government our 
partner in California's comprehensive Water Action Plan. In 
particular, we support provisions that would promote 
desalinization projects; funding WaterSMART to promote 
conservation; funding and improvements in Title XVI, a dollar 
allocation that will significantly promote water use; 
authorizations for new storage projects; new financing 
approaches like RIFIA, which is a low-cost buying approach that 
some of our project proponents think would be enormously 
valuable. We are also very supportive of some of the 
streamlining provisions in the Senator's bill and for 
provisions that would provide assistance to disadvantaged 
communities.
    If you add all of this up, just the desalinization and the 
recycling provisions of S. 2533 could result in 1.4 million 
acre-feet of new water in California in combination with, we 
believe, hundreds of thousands acre-feet for more flexibility 
in the near-term provisions.
    This is a good down payment on California's drought 
resiliency in the future, so ACWA would urge the Subcommittee 
to move this bill forward so we can go and deal with the 
authors of 2898 and come up with a combined approach that we 
can send to the White House and get signed.
    Thank you very much.
    [The prepared statement of Dr. Quinn follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        Senator Flake. Thank you.
    Mr. Keppen.

         STATEMENT OF DAN KEPPEN, EXECUTIVE DIRECTOR, 
                      FAMILY FARM ALLIANCE

    Mr. Keppen. Good afternoon, Chairman Flake, Senator 
Gardner.
    My name is Dan Keppen. On behalf of the Family Farm 
Alliance, I thank you for this opportunity to present this 
testimony on 
S. 2533, Senator Feinstein's California and West-wide drought 
bill.
    The negative impacts of today's droughts and water 
shortages have reached staggering levels for our farmers and 
ranchers, their families, and the irrigated agriculture 
community. Unfortunately, these impacts are driven in part by 
current regulations triggered by fixed calendar dates or 
singular operational thresholds, as Mr. Quinn talked about.
    Important species distribution or other relevant 
environmental factors are often not considered. Such approaches 
are inflexible, inefficient, and ineffective. They stem in part 
from the fact that Congress has not explicitly directed 
agencies to be flexible and innovative, so the agencies default 
to the actions that are least likely to get them sued. Thus, 
the status quo persists. California Bay Delta (CBD) operations 
in 2016 provide an excellent example of this, and I have 
included some figures with my written testimony that 
demonstrate this.
    Because of El Nino storms this winter, inflow in the 
Sacramento-San Joaquin Delta was almost three times greater 
than it was this time this last year, yet the water pumped to 
supply millions of acres of world-class farmland and more than 
20 million Californians living south of the Delta has barely 
increased as compared to last year because of regulatory 
restrictions. Again, one of my figures in the written testimony 
clearly shows that.
    S. 2533 provides for more flexible, efficient, multipurpose 
management of the federal Central Valley Project (CVP) and the 
Delta. This is also true of the House-passed H.R. 2898, the 
Western Water and American Food Security Act of 2015, which the 
full Committee considered during a drought hearing held last 
October that I participated in.
    That hearing also examined Senator Feinstein's earlier 
drought legislation, S. 1894. I testified at the hearing 
expressing our support for both bills which, while similar in 
intent, differed on some important aspects regarding the Delta.
    Certain provisions in H.R. 2898, if enacted, would better 
assist producers in the CBD in dealing with ESA restrictions on 
water deliveries. The House bill does this through improved 
management of species, water flows, and habitat in the Delta.
    H.R. 2898 also would facilitate future water development 
projects through its water supply permitting and Reclamation 
projects streamlining provisions.
    S. 2533 also includes California-specific provisions. These 
are intended to provide additional flexibility and tools to 
address water conveyance and flows in relation to fish 
populations on a real-time basis. We back the bill's provisions 
that seek to address other stressors in the Delta environment, 
especially non-native fish that prey on ESA-listed species like 
Delta smelt and Chinook salmon. S. 2533 also includes specific 
federal authorities and actions that would aid fish passage in 
the Delta, increase hatchery production, and improve spawning 
and rearing habitat of listed species. 
S. 2533 generally directs the Federal Government to maximize 
water supplies to federal and state water users by approving 
projects and operations that provide additional water supplies.
    The bill includes temporary operational flexibility 
provisions that would allow for the diversion and capture of 
peak winter storm flows in the Delta. It streamlines National 
Environmental Policy Act (NEPA) permitting on water 
infrastructure projects and directs agencies to complete 
certain ongoing feasibility studies for California surface 
water storage projects. Some of these were originally 
authorized nearly 20 years ago. Tim and I were involved with 
this 20 years ago, and they have languished ever since.
    In addition to its California Bay Delta focus, S. 2533 
contains a number of additional provisions that would apply 
throughout the West and which we have previously supported. The 
bill would provide up to $600 million in budget authority for 
the Secretary of Interior to request funding for the federal 
share of new water storage projects in the Western United 
States. S. 2533 also includes innovative financing provisions 
for expanded water infrastructure, which we support.
    We back provisions in S. 2533 directing the Corps of 
Engineers to identify and study flood control rule curves at 
corps-regulated reservoirs where additional water supplies 
could be stored and used in dry years. However, this provision 
has been superseded by an improved version included in the 
Senate-passed S. 2012 energy bill recently, and it should be 
updated accordingly, in our view.
    We support Senator Feinstein's proposed expansion of Water-
SMART grants and availability of Reclamation Title XVI water 
recycling and reuse grants.
    To conclude, we are encouraged by this Committee's 
consideration of both the House-passed H.R. 2898 and S. 2533. 
We urge you to keep at it. That is because two separate bills 
are of absolutely no value to a parched West. This has been 
twice emphasized in letters to this Committee and signed off by 
over 100 Western agriculture and water organizations in the 
past eight months.
    What is needed is a single bill that can be enacted by 
Congress and signed into law by the President. We must all work 
together to ensure that Western water users have every tool 
available to survive and recover from the current drought in 
the hard dry years that the future may hold.
    Thank you, and I would stand for any questions you may 
have.
    [The prepared statement of Mr. Keppen follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Senator Gardner [presiding]. Thank you, Mr. Keppen.
    I apologize, again, to the witnesses who are here, as we 
have three votes that everybody is dashing in and out for. 
Thank you very much for your time and testimony today.
    It is my privilege and honor to hear the next witness, Mr. 
Bill Long, who I will speak a little bit more about in the 
questioning period.
    Mr. Long from Colorado, welcome.

    STATEMENT OF BILL LONG, PRESIDENT, BOARD OF DIRECTORS, 
        SOUTHEASTERN COLORADO WATER CONSERVANCY DISTRICT

    Mr. Long. Thank you, Mr. Chair, Senator Gardner.
    My name is Bill Long. I am President of the Board of 
Directors of the Southeastern Colorado Water Conservancy 
District. I appreciate this opportunity to appear before you 
today in support of 
S. 2616, which was introduced by you, Senator Gardner, and is 
cosponsored by Senator Bennett. Your favorable and expeditious 
consideration of the bill will be greatly appreciated by the 
people of the Lower Arkansas Valley.
    The Arkansas Valley Conduit, an authorized feature of the 
Bureau of Reclamation's Fryingpan-Arkansas Project, will convey 
treated drinking water from the project's Pueblo reservoir east 
to 40 communities in the Lower Valley. These small, rural towns 
currently use groundwater wells to supply some or all of their 
drinking water.
    Twenty-one towns have water supplies containing naturally 
occurring, cancer-causing radioactive elements at levels which 
exceed or nearly exceed federally-mandated standards. The 
Colorado Department of Health and Environment has notified 
these providers that they must treat the water supplies to 
remove the contaminants or find a better water quality source.
    In addition, the median salt concentration in the current 
supply is nearly seven times greater than the secondary 
drinking water standard.
    Our communities have a critical need for safe drinking 
water supplies. In its 2014 Record of Decision, Reclamation 
concluded that individual community water systems diverting and 
treating water from the Arkansas River would not provide a 
reliable, long-term, safe water supply.
    Instead, an efficient regional solution, the Arkansas 
Valley Conduit, was selected. It takes advantage of the City of 
Pueblo's existing water treatment facilities and will benefit 
from the economies of scale. This regional project will be less 
costly than any of the alternatives examined by Reclamation 
under NEPA.
    Because this regional project is without question the most 
efficient and effective way to deliver quality drinking water 
to the affected communities, the district has been discussing 
with Reclamation and the Department of the Interior ways to 
provide non-federal financing for construction of the conduit.
    The concept is that approximately $100 million would be 
provided by the district from non-federal sources, thus 
reducing significantly the appropriated dollars needed for the 
project.
    The Fry-Ark Project generates revenue from local water 
providers who pay Reclamation for the storage and conveyance of 
their nonproject water. S. 2616 would expand the ability to use 
these revenues not only to repay the 35 percent plus interest 
required in legislation passed in 2009. The bill would allow 
use of the miscellaneous revenue sooner and to greater savings 
to the Federal Government during project construction.
    S. 2616 would further allow the use of miscellaneous 
revenues to repay the $100 million non-federal contribution 
mentioned earlier. The district anticipates obtaining the non-
federal financing through a loan from the Colorado Water 
Conservation Board, our state water policy agency and a strong 
supporter of the project. In fact, $60 million has already been 
approved by the State of Colorado.
    I ask that the Colorado Water Conservation Board written 
statement in support of S. 2616 be included in the official 
record, along with the written statement, which I have 
submitted, and have the CWCB statement with me.
    Senator Gardner. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
   
    Mr. Long. At this time, there is no statutory requirement 
for non-federal financing of the project; however, the district 
is mindful of the budgetary constraints Congress faces. S. 2616 
is offered by our Senators with the intent of substantially 
reducing appropriations needed for the conduit. By maximizing 
in three ways the use of project-generated revenues, the 
federal outlay needed for construction will be reduced by more 
than $150 million. As miscellaneous revenues continue to be 
generated by the Fry-Ark Project, after repayment of this CWCB 
loan and the district's 35 percent share of the federal 
investment, those revenues can continue to repay the remaining 
65 percent of the conduit's cost. S. 2616 will clearly achieve 
the goal of reducing federal outlays through appropriation.
    Of greater importance to the people of the Lower Arkansas 
Valley is having a reliable, safe drinking water supply, not a 
tainted supply which brings a significant threat to public 
health, and enforcement costs from regulators.
    Thank you again, Mr. Chairman, for the opportunity to 
testify. I would be happy to respond to any questions you may 
have.
    [The prepared statement of Mr. Long follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Gardner. Thank you, Mr. Long.
    For the sake of Senators Roberts and Moran, I will clarify 
something that you said. It is the ``Arkansas River,'' not the 
``Ar-Kansas River.''
    So thank you very much, Mr. Long, for your testimony today.
    Mr. Buschatzke, Director of the Arizona Department of Water 
Resources, thank you. Please proceed.

STATEMENT OF THOMAS BUSCHATZKE, DIRECTOR, ARIZONA DEPARTMENT OF 
                        WATER RESOURCES

    Mr. Buschatzke. Thank you, Chairman Gardner.
    I am Tom Buschatzke, Director of the Arizona Department of 
Water Resources. Thank you for providing me an opportunity to 
present testimony on behalf of the State of Arizona regarding 
S. 2902, the Western Water Supply and Planning Enhancement Act.
    The ongoing drought in the Western United States 
demonstrates the need for congressional action that empowers 
states to better plan for and manage their existing water 
resources, to re-operate existing reservoirs to generate more 
water, to reestablish healthy forests to increase their water 
yield and protect the quality of water they produce. If 
enacted, S. 2902 will provide new tools to help achieve those 
goals.
    My statement today will focus on four sections of the bill 
that reflect a consensus position of a broad group of Arizona 
water users.
    Section 101 directs the reevaluation of flood control 
operations at U.S. Army Corps of Engineers or U.S. Bureau of 
Reclamation dams to enhance water storage. In Arizona, an 
opportunity exists to create temporary storage in flood control 
space at modified Roosevelt Dam, but past efforts have been 
stymied by a cumbersome Corps of Engineers process. With a 
successful process, an average of about 70,000 acre-feet per 
year, an increase of 10 percent to the water supplies of the 
Salt River Project in the Phoenix metropolitan area, can be 
achieved. Section 101 provides clarity and potentially 
streamlines the process for creating temporary storage at 
modified Roosevelt Dam.
    Section 103 seeks to have the National Academy of Sciences 
complete a study on the effectiveness of controlling tamarisk 
to increase water supplies and improve riparian habitats, and 
for the Bureau of Reclamation to create a feasible plan that 
builds upon the 2012 Colorado River Basin Supply and Demand 
Study recommendations to implement tamarisk control. Arizona 
supports cost-effective methods to control tamarisk to create 
additional flow in the Colorado River System and to improve 
riparian habitat.
    Section 104 provides authority for the Secretary of the 
Interior to fund or participate in projects to conserve water 
for the benefit of the Colorado River System. Provisions of 
this section build upon collaborative efforts of the Colorado 
River Basin states and the Department of the Interior to 
proactively manage the Colorado River to improve its health. 
The creation of system conservation water is a critical 
component of efforts to protect Lake Mead flows. From 2014 to 
the end of 2016, Arizona will have created a total of about 
165,000 acre-feet of system conservation water. This is a 
significant contribution to Lake Mead elevations that benefit 
all the Basin states. Absolute certainty that the system water 
will stay in Lake Mead is a necessity for Arizona to continue 
its efforts to create these protection volumes because we have 
the ability to use water solely for the benefit of Arizona 
through its water banking program, which stores water in 
aquifers within Arizona for its own future use. Some water 
users in Arizona prefer the water banking option over the 
system conservation option. Arizona appreciates that the 
Secretary of the Interior has chosen not to release any of the 
system water created to date but supports the provisions in the 
bill that achieve the outcome of creating absolute certainty 
that system water will remain as system water. Furthermore, 
Section 104 provides an incentive for all water users in the 
Lower Basin to continue to incrementally add to the system 
conservation measures with the knowledge that the conserved 
water will provide the benefit that was intended.
    Lastly, Sections 111 through 114 of the legislation create 
a streamlined permitting process for forests and wildland 
restoration activities in critical water supply watersheds. The 
woeful health of our forests is well-known and the number of 
acres burned has grown dramatically over the last three-plus 
decades. Fire impacts reduce reservoir capacity and yield 
because of the increased sedimentation and also degrade water 
quality. There is an immediate need to take action to reduce 
the risk of catastrophic fire in our watersheds. Expediting 
permitting is necessary to restore forests to a healthy 
condition in a timely manner, and this legislation can help 
achieve that outcome.
    In summary, the State of Arizona supports Sections 101, 
103, and 111 through 114 of S. 2902. Collectively, these 
provisions further the efforts of the state to develop, manage, 
and protect the quantity and quality of its water supplies and 
improve the health of its forests.
    Thank you.
    [The prepared statement of Mr. Buschatzke follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
       
    Senator Flake [presiding]. Thank you.
    Ms. Ziemer.

  STATEMENT OF LAURA ZIEMER, SENIOR COUNSEL AND WATER POLICY 
                    ADVISOR, TROUT UNLIMITED

    Ms. Ziemer. Good afternoon, Chairman Flake. Thank you for 
the invitation to testify today on behalf of Trout Unlimited.
    I live and work in Montana and have experienced firsthand 
the devastation of prolonged drought. That is why I have spent 
most of the last 20 years finding collaborative solutions to 
water scarcity. I have pioneered new ways to make water go 
further with Montana ranches. I created a voluntary drought 
response plan in the Blackfoot River Basin, built on the idea 
that if everyone gives a little, no one loses out.
    My experience has been one of diverse partners coming 
together to find innovative solutions to water scarcity at a 
variety of scales, by rethinking water infrastructure and 
repairing natural systems.
    I have learned a couple things during a decade of walking 
irrigation ditches that I would like to share today. I would 
like to tell four stories of collaborative efforts with 
partners like the Family Farm Alliance and Reclamation that 
each help chart a path forward. Each of these stories anchor 
Trout Unlimited support or opposition to the bills before the 
Subcommittee today.
    In Eastern Washington's Yakima River Basin, Trout Unlimited 
sat down with irrigators, other sportsmen, local, state, and 
federal agency staff and tribal members to develop a mosaic of 
the drought resilience approaches from water infrastructure 
improvements to restoring fish passage to temporary water right 
transfers. The State of Washington believes strongly enough in 
the Yakima plan that it has already provided $161 million 
toward its implementation. Collaborators of the Yakima plan 
achieve more for their own interests standing together than 
they would on their own. Senator Cantwell's white paper on 
drought and water security is an expression of the Yakima 
success. It calls for federal support of collaborative 
watershed-scale solutions based on a portfolio of projects with 
innovative financing to get projects over the finish line.
    My second story is my own work on Montana's Sun River, 
where we found a way to benefit irrigation water supply while 
restoring flows to the chronically dewatered Sun River. Two 
thousand feet of lined canal, 2,300 feet of PVC pipe, and a new 
bypass canal put more water in the Sun River, more than 
doubling the wild trout population over the last three years.
    In S. 2533, Section 101 reflects my Sun River experience. 
Section 101 prioritizes WaterSMART projects that provide 
benefits across the three legs of the drought-resilient stool, 
creating benefits to fisheries alongside benefits to 
agricultural and urban water users. The kind of work we 
accomplish in the Sun River Basin would also benefit from 
Section 508, which supports an open water data system.
    My third story comes out of Wyoming, where a decade of 
restoration projects with ranchers meant that partnerships were 
in place when, last year, Reclamation and municipalities 
announced a system conservation pilot program. This effort to 
develop water transfer tools addresses long-term drought in the 
Colorado River Basin.
    For the upcoming irrigation season, Trout Unlimited and 
Wyoming ranchers have worked together to offer more than 10,000 
acre-feet of water conservation in the upper Green River, 
primarily through split season water leases. The Reid-Heller 
amendment to the energy and water appropriations bill continues 
this pilot program.
    My last story is Trout Unlimited's long-term commitment to 
the Klamath. It shows that ground-up, collaborative solutions 
can emerge even in a river basin deeply divided over water 
conflicts. Years of discussion and listening to real needs 
produced these three hard-won agreements among diverse 
stakeholders.
    The lesson from the Klamath River relevant to today's 
hearing is that carefully crafted solutions of mutual benefit 
produce bipartisan support. The Klamath initiative led by 
Senators Wyden and Merkley brought investment in irrigation 
infrastructure and water supplies to support one of the most 
productive salmon and steelhead fisheries on the Pacific coast. 
This experience contrasts with S. 2533 in two important ways.
    First, Title III legislates some sets of water users as 
higher priorities than others, which seems likely to fuel more 
litigation and conflict rather than moving toward lasting 
solutions based on mutual benefit.
    Second, Section 112 grants West-wide authority to construct 
new storage. Our experience is that new storage should be 
evaluated and carried out in a multi-stakeholder, basin-wide 
process, and Section 112 could undermine such collaborative 
processes.
    Finally, Trout Unlimited opposes S. 2902 because it 
undercuts collaborative watershed-based efforts and key 
provisions.
    I hope my testimony today has been helpful in charting a 
path forward toward water security in the West. I would be 
happy to answer any questions. Thank you.
    [The prepared statement of Ms. Ziemer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Senator Flake. Thank you. Thank you all for your testimony. 
I am sorry for the confusion here, as one has to go and vote 
and another comes back. We have one more vote, which I will 
need to go take in a few minutes. But hopefully, Senator 
Gardner will come back and we can continue with questions.
    I have a letter here from the Western Governors' 
Association signed by Governor Mead of Wyoming, Governor 
Bullock of Montana, the association's chair and vice chair, 
respectively. The Western Governors' Association believes that 
a comprehensive West-wide response to drought and water 
security is needed and asks the Committee to develop such 
legislation.
    So I ask unanimous consent that the letter be included in 
the record, without objection, I guess.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Flake. It is good to be king.
    [Laughter.]
    Before I move to some questions, I want to convey my thanks 
to Commissioner Lopez for his leadership with the Bureau of 
Reclamation, the ongoing work in implementing the system 
conservation plan, and for developing the Colorado River 
Drought Contingency Plan. I expressed this thanks to Secretary 
Jewell when she was in front of this Committee earlier this 
year, but I wanted to convey my gratitude to you personally. 
Thank you.
    It is great to have Tom Buschatzke here. I appreciate you 
making the trip. Thank you for your work in putting together 
priorities for Arizona and for working so hard on water issues 
there.
    S. 2902 and S. 2907 both expand on one of the voluntary 
programs to conserve water in Lake Mead that you talked about. 
It seems clear that the Colorado River Water Conservation 
Program has been successful and ought to be extended in 
whatever drought legislation emerges from this Committee.
    I ask that you please explain the different programs that 
already exist, and those that are in the works, to create this 
so-called system water in Lake Mead. Who participates in them? 
Who funds them? How do they differ?
    Mr. Buschatzke. Yes, Senator Flake. There are a couple of 
programs that I want to highlight.
    The first is a Memorandum of Understanding (MOU) that was 
entered into between the Metropolitan Water District of 
Southern California, the Central Arizona Project, the Southern 
Nevada Water Authority, the U.S. Bureau of Reclamation, and the 
states of Arizona, California, and Nevada. Volumes of water in 
the amount of 740,000 acre-feet are the goal of the MOU. It is 
a best-efforts program. Each one of the states through their 
water users has a piece of that 740,000 acre-feet for them to 
try to achieve. That 740,000 acre-feet has been shown through 
modeling to severely reduce the risk of having Lake Mead fall 
to unhealthy elevations.
    Within Arizona, there have been reductions through that 
program of 165,000 acre-feet of water dedicated to the system, 
water that is system conservation water by the end of 2016 and 
another 215,000 acre-feet by the end of 2016 for intentionally 
created surplus water that is labeled in the name of the 
creator for later recovery out of the lake. The total cost of 
those two programs for Arizona through the Central Arizona 
Project was about $8 million.
    The other program, you mentioned it already, is the Pilot 
System Conservation Program. That again was funded by 
Metropolitan, CAP, Southern Nevada Water Authority, Denver 
Water, and the U.S. Bureau of Reclamation, originally for an 
$11 million fund. Recently, the Central Arizona Project put 
another $1 million into that fund. That attempts to achieve 
system conservation savings in the Lower Basin using about two-
thirds of that money, and in the Upper Basin using about one-
third of that money. In the Lower Basin, we expect to achieve 
savings of 60,000 acre-feet, and in the Upper Basin, about 
10,000 acre-feet.
    Many of those programs have had contracts entered into, and 
those contracts are being implemented, and the savings will 
occur over some number of years.
    Senator Flake. Thank you. You mentioned in your testimony 
that some of the water users would rather water bank rather 
than leave it behind the dam. What assurances do they need 
before they feel comfortable leaving it behind the dam?
    Mr. Buschatzke. Senator Flake, under the MOU and under the 
Pilot System Conservation agreements, we do have provisions 
that are kind of gentlemen's agreements to leave that water in 
the lake. As I mentioned in my statement, the Secretary of 
Interior has chosen to do that.
    But I think to quell the debate in Arizona about whether to 
leave that water in the lake or put it in our aquifers under 
our control, we need more certainty that the water will stay 
there. We need the provisions of S. 2902 that do that. We need 
to make sure that those provisions are enforceable, so that we 
have the comfort we need to make sure that we are getting the 
benefit of the bargain for that water.
    Senator Flake. All right, thank you.
    Commissioner Lopez, I was encouraged to hear the Bureau of 
Reclamation committed an additional $5 million to the Colorado 
River System Conservation Pilot Project in 2016. Based on the 
previous year's experience, how much additional Lake Mead 
protection volume do you anticipate that this year's funding 
will help to create?
    Mr. Lopez. Senator, thank you for the question.
    You are correct. We have allocated $5 million for system 
conservation projects and of that $3.5 million to the Lower 
Basin and $1.5 million to the Upper Basin.
    Perhaps the best way to answer your question is to consider 
what was saved from the last phase, where, as Director 
Buschatzke just mentioned, combined funding was something on 
the order of $11 million. We were able to acquire about 63,000 
acre-feet in the Lower Basin using about $8 million, and in the 
Upper Basin, we conserved something on the order of about 3,300 
acre-feet using the remainder, about $2.75 million. So that 
gives you some sense of what we have been able to accomplish so 
far.
    With the $5 million that we have put up for this year, we 
hope to get additional non-federal contributions to match that. 
As Director Buschatzke has mentioned, the CAP has already put 
up some money, as I think California has as well. But we are 
hopeful that others will match that as well.
    Senator Flake. All right, thank you.
    Ms. Weldon, the Subcommittee received testimony on S. 982, 
the Water Rights Protection Act, last June. The language 
included in S. 2902 reflects a number of changes that were made 
based on testimony from that hearing.
    I understand that your testimony states that, ``USDA has 
not had time to fully analyze the effect of this bill,'' and 
that the USDA's concern is with the prohibitions that would 
regulate uses of National Forest System lands. I believe the 
modified language incorporated in S. 2902 addresses these 
concerns and only limits a state water right, leaving land 
management decisions untouched.
    The question is, will you please commit to work with my 
office and highlight for us particular areas of concern in the 
legislation that might prohibit the regulation of Forest 
Service land use, what concerns you about it?
    Ms. Weldon. Thank you, Senator Flake.
    We would be very happy to work with you and your staff to 
look at the changes that have been made. The overall concern 
would be if there were any provisions in the bill that would 
somehow reduce the ability for the Secretary and for the Forest 
Service to ensure that, as land use authorizations are 
occurring, they are being done in a way that protects water 
rights, but also ensures availability of water for a diversity 
of uses. So we would be happy to continue working with you and 
your staff on the language and the changes with this bill.
    Senator Flake. Thank you.
    Mr. Buschatzke, I have heard from a number of communities 
up and down the Gila River about the tamarisk problem that you 
mentioned. Can you talk a little more from what you did in your 
testimony about the challenges that the state faces from this 
invasive plant?
    Mr. Buschatzke. Yes, Senator Flake.
    I think, as we heard from Senator McCain, there is great 
potential for water savings from salvage of removing tamarisk 
and replanting with riparian vegetation. I think the basin 
study, the Colorado River Basin Supply and Demand Study, uses a 
number of about 0.54 acre-feet per acre doing that salvage. I 
think additional study needs to be done to solidify that 
number.
    Some of the challenges of removing that tamarisk along with 
the Gila River are there are at least three species of birds--
the Southwestern Willow Flycatcher, the Yellow-Billed Cuckoo, 
and the Yuma Clapper Rail--that are in danger that live in the 
tamarisk along the Gila River. Some of that tamarisk is also 
designated as critical habitat for that and other species, so 
removing it creates issues under the Endangered Species Act. We 
have Corps of Engineers 404 permitting issues as well. Then 
generally, in Arizona, with as much federal land as we have, 
the feds have an obligation to protect species, but often do 
not have the funding to really do some of the things that would 
help those species out. So lastly, we know that the tamarisk 
chokes our channels and creates additional flooding. It also 
limits the ability to use the channel to move water around 
Arizona. Under Arizona law, you can use a riverbed to transport 
water and keep your name on that water, so to speak.
    So we have lots of challenges, but a study that is in S. 
2902 might help create some methods moving forward to deal with 
some of these issues. I think there is some great potential 
there for Arizona to increase its water supplies through 
tamarisk control.
    Senator Flake. All right, thank you. I toured around 
Safford and Thatcher a while ago, and it is unbelievable how 
thick tamarisk is in the Gila there. It just makes it 
completely impassable, so it is a lot of work that needs to be 
done there.
    Mr. Lopez, as Tom Buschatzke said, one of Arizona's 
planning successes has been the ability to store water, 
millions of acre-feet, underground. Last month, I toured a 
facility around Tucson storing Colorado River water. With the 
threat of storage declaration looming and the ability to 
recover and transport this stored groundwater that is critical, 
obviously, to Arizona's water future, I wanted to thank the 
Bureau for your ongoing work with CAP and the system use 
agreement that allows the kind of wheeling to happen.
    Can you give an update on the status of finalizing the 
system use agreement, including tribal consultation?
    Mr. Lopez. Senator Flake, I am not certain of the exact 
status of that. I know that there is a lot of work going on 
with it, including the consultation that you are talking about. 
Our regional staff is meeting with tribes and with CAP and 
working on those things, but I can try to find the exact status 
of it and submit it for the record, if you would like.
    Senator Flake. That would be helpful.
    Mr. Lopez. Senator Flake, I am assuming that you are 
referring to the wheeling agreements, correct?
    Senator Flake. Yes, I am.
    Mr. Lopez. Okay.
    Senator Flake. Thank you.
    Mr. Keppen, your testimony makes some comparisons between 
the various approaches taken in the different Colorado drought 
bills and their relative effectiveness in getting additional 
water to farmers.
    Can you explain the relative effectiveness of S. 1894 and 
S. 2533 and H.R. 2898, particularly with regard to the guidance 
and flexibility that are provided to the agencies in each of 
these bills?
    Mr. Keppen. Sure. Again, I think H.R. 2898, the House bill, 
probably would better assist our producers in the Central 
Valley Project in dealing with ESA restrictions on water 
deliveries. But again, the challenge is getting language that 
deals with the ESA through the Senate. So that is the challenge 
that I think remains here for us to reach agreement.
    Senator Flake. Thank you.
    Senator Gardner will take over while I vote. Thanks again.
    Senator Gardner [presiding]. I yield to Senator Daines for 
five minutes for questions.
    Senator Daines. Thank you. Thanks to all of you for 
appearing before the Committee, particularly Ms. Ziemer. It is 
always good to have Montanans here in Washington, DC. Welcome.
    As we all know, water is a basic need of life. Despite this 
reality, there are still rural and tribal communities 
throughout Montana that face significant barriers to accessing 
clean and reliable sources of water. That is why I am proud to 
help introduce the Western Water Supply and Planning 
Enhancement Act that includes my provisions to authorize two 
critical rural water projects in Montana, the Dry-Redwater and 
the Musselshell-Judith Basin Projects, which would treat and 
deliver water to over 30,000 residents of central and eastern 
Montana and parts of North Dakota.
    This bill also includes other important provisions, 
including the IRRIGATE Act which would help facilitate 
irrigation projects throughout Indian country and the Water 
Rights Protection Act which would prevent Federal agencies from 
requiring businesses or landowners to transfer their water 
rights in exchange for renewing a permit or lease to utilize 
public lands.
    It is time the Federal Government fulfill its obligations 
and promises to Montana's rural communities and provide needed 
funding to ensure our rural water projects are completed and 
our water rights are protected.
    A question for Ms. Weldon. Ms. Weldon, I understand you 
spent time in Missoula, Montana, where you served as the 
Regional Forester for the Forest Service Northern Region, so I 
am sure you know the issues regarding forest management and 
water quality in Montana communities.
    The Forest Service has classified 134 watersheds in Montana 
as impaired, which is the most severe condition. We need to 
restore these watersheds. It is why I strongly support the 
provision in Senator Flake's legislation that provides new 
tools to swiftly implement watershed projects developed through 
a collaborative process. In fact, I urge the Administration to 
support these new tools.
    I am further told by the Forest Service that there are 
currently five projects in Montana that are designed primarily 
to restore watersheds. Two of these projects have faced 
litigation. There are an additional four active lawsuits 
against projects that would enhance watersheds as a byproduct 
of the projects' integrated management. All of these projects 
were developed through a collaborative process.
    I would like to highlight one that is literally in my 
backyard. It is the Bozeman Municipal Watershed Project. I went 
to Bozeman from kindergarten all the way through college. This 
project was conceived in 2005, more than a decade ago, by the 
Forest Service and collaborative stakeholders working together, 
but it has been tied up in litigation now for years and was 
enjoined since 2013.
    Ms. Weldon, when a project is enjoined, that means work on 
the ground must stop. Is that right?
    Ms. Weldon. That is correct.
    Senator Daines. What impacts can a delay in implementing a 
project have on the condition of an impaired watershed?
    Ms. Weldon. Thank you for your question, Senator Daines.
    I was actually able to walk the ground where this project 
is, the Bozeman Municipal Watershed Project, and understand the 
conditions that are faced there, the need for us to reduce the 
risk of losing portions of that watershed to wildfire and 
subsequent effects downstream for water quality and quantity.
    So when a project gets enjoined and must be stopped, what 
happens is that the good, collaborative agreement around the 
need and value for this restoration work to be done to protect 
water is delayed. Each summer, each season, we face the risk of 
increasing insect and disease infestation, and the continuing 
decline of condition and, of course, the threat of wildfire. 
One wildfire in an area where we have made the investment and 
have a good public support for doing this work can nullify that 
and increase the impacts to citizens to get clean water and the 
work that needs to be done to put those landscapes back 
together to have clean water again in the future. So the delays 
are a significant problem when we know that the work we would 
invest in would make a difference.
    Senator Daines. We have had some fires recently that had it 
not been for maybe a wind change and so forth, we could have 
come through that watershed. In fact, we are the fastest 
growing county in Montana, Montana State University has 14,000 
students in addition to 35,000 residents of Bozeman.
    As I have noted these watershed-impacted lawsuits are made 
in Montana. They are working against made-in-Montana 
collaborative projects. I am a champion of collaboration, but I 
think you recognize it has not been a cure-all. The 
collaborative process has not been a cure-all to avoiding 
litigation in Montana, and we need to strengthen them.
    Ms. Weldon. Yes, I would say that collaboration does not 
prevent lawsuits but it changes the playing field.
    As our witness from Trout Unlimited said, the value of 
bringing people together around what is important and around 
the value of watersheds and forests is making a difference. And 
we are finding that, even as we have challenges, we have been 
better able to resolve them, working through collaboratives, 
than without having them.
    Senator Daines. I am a big supporter of incentivizing col-
laboratives. We are seeing it is absolutely a step in the right 
direction. It just has been insufficient at times. It is not 
the absolute cure-all. We need to continue to work here on 
stopping some of this litigation that stops good, made-in-
Montana collaborative projects.
    Thank you very much for your testimony.
    Ms. Weldon. Thank you.
    Senator Gardner. Thank you, Senator Daines. Again, thank 
you to all of you for being here today.
    Mr. Long, thank you very much for coming all the way from 
Colorado to serve on the panel today and for your testimony. 
Bill has worked with the Southeast Colorado Water Conservancy 
District for over a decade and serves as the President for the 
Southeast Colorado Water Conservancy District, a County 
Commissioner from Bent County, and a business owner in Bent 
County. I appreciate the work you have done with Fort Lyon to 
facilitate opportunities for treatment to our veterans and a 
number of the other policies and issues that you have taken up 
in southeastern Colorado, and particularly the Arkansas Valley 
Conduit, which you are going to discuss today and have 
discussed today.
    For the information of the members of the Committee and 
those here, the Arkansas Valley Conduit, as Mr. Long eloquently 
stated, is a water project that will allow for the delivery of 
clean, abundant, affordable water to southeastern Colorado's 
rural communities. It is the final major component of the 
Fryingpan-Arkansas Project which was first authorized under 
John F. Kennedy in the 1960s.
    In fiscal year 2016, $2.5 million was appropriated for the 
project. In fiscal year 2017, the Senate Energy and Water 
Development Appropriations legislation contained an additional 
$3 million for the project.
    You have outlined a number of concerns with the drinking 
water in Southeast Colorado today. You mentioned water quality 
concerns, and you discussed the current status of the Arkansas 
Valley Conduit. Could you talk a little bit about the timeline 
moving forward, perhaps if this legislation passes and perhaps 
if it does not?
    Mr. Long. Regardless of this legislation, final feasibility 
will be complete September of this calendar year, 2016. Should 
this bill be approved and future funding come online as 
anticipated, final design and engineering will be complete in 
2018 and construction could begin as early as fiscal year 2019.
    Senator Gardner. Very good. How would the passage of this 
legislation and continued federal investment in the project 
impact the timeline?
    Mr. Long. Senator Gardner, without this legislation, the 
miscellaneous revenues and the ability to partner with the 
State of Colorado, it will be very difficult for this very low-
income area of Colorado to construct the project to meet 
federally-mandated water quality standards.
    Senator Gardner. Thank you, Mr. Long.
    The federal interest in the project, if you could address 
that and why it is important for Congress and the Bureau of 
Reclamation to continue to invest in the conduit? I think you 
laid it out very clearly in your testimony.
    Mr. Long. We believe Congress has recognized the need for 
communities to meet federally-mandated water quality standards 
that protect public health, and we agree. The project will 
ensure that federal standards are met and safe water is 
provided to our residents.
    It also will ensure that our wastewater streams that we are 
very challenged with right now are met as well, so it really 
takes care of a couple issues that are extremely challenging to 
virtually every community in the Lower Arkansas Valley.
    Senator Gardner. Thank you.
    Again, I think this is part of the project authorized in 
the early 1960s under John F. Kennedy, and it is time we move 
forward on this bill.
    I know that we have been working very closely with the 
Bureau of Reclamation. Deputy Secretary Mike Connor was here 
February 23rd and answered questions where he committed 
continued support of the Arkansas Valley Conduit. He also 
specifically stated that the concept laid out in the 
legislation that we are talking about today was a very good 
plan when it comes to the financing of the project.
    So my question to Mr. Lopez, when the Bureau of Reclamation 
issued the record of decision on this project in 2014, did they 
find that this project was sound and should move forward?
    Mr. Lopez. Senator, yes. We think this is a worthy project. 
Obviously, it is taking care of a water quality problem that is 
affecting a large number of communities, so I think it is an 
important project that we continue to support.
    Senator Gardner. Thank you very much, sir.
    If enacted, do you believe legislation under consideration 
will assist in getting the Arkansas Valley Conduit constructed 
as expeditiously as possible?
    Mr. Lopez. I do. Given the constrained budgets that we are 
working with, there are not many avenues other than something 
like the legislation that you have introduced for us to get 
something built timely.
    Senator Gardner. Thank you, Mr. Lopez.
    Mr. Long, thank you for being here today.
    It is just absolutely critically important. We are talking 
about water quality for the thousands of families that live 
along the Arkansas River. We are talking about economic 
opportunity for people who live along the river. When we talk 
about the need for this area and the economy and what drives 
this economy, clean, abundant water is the building block of 
revitalizing all of Colorado, but particularly southeastern 
Colorado, so thank you for your passionate testimony today.
    Ms. Weldon, when Congress designated the Holy Cross 
Wilderness Area in 1980, the Bolts Ditch headgate and 
approximately 450 feet of the Bolts Ditch were inadvertently 
included within the boundary. The headgate and ditch have been 
used by the community of Minturn to fill Bolts Lake, which is 
outside the wilderness area.
    Passing the Bolts Ditch Access and Use Act is important to 
provide clarity to the town of Minturn, to ensure that they can 
utilize their existing water rights and can access the ditch 
and headgate within the wilderness area for the purpose of 
maintenance and repair.
    In your testimony, you state that you do not oppose the 
legislation, that USDA does not oppose the legislation. Could 
you elaborate on why the legislation is necessary in this case 
to allow for Minturn to assert their long-held water rights?
    Ms. Weldon. Yes, and we appreciate the language here in the 
bill that is reaching in to resolve one of the stipulations of 
the global settlement decree around resolving this issue. This 
bill will help to get a solution that is really clearly 
supported by Eagle County, Colorado River District, as well as 
the river advocacy groups, to allow us to move forward with 
continuing with this operation under a special use permit and 
to ensure that we are doing that work in the context of the 
requirements of the Wilderness Act.
    Senator Gardner. Thank you very much, Ms. Weldon.
    Dr. Quinn, I had a question for you, but we are out of 
time. As an economist, I was hoping you would explain to this 
Committee how water can flow uphill to money, but we are out of 
time, so thanks very much for the opportunity.
    Senator Barrasso.
    Senator Barrasso. Well, thank you very much.
    I also would like to thank Senator Flake for introducing S. 
2902, the Western Water Supply and Planning Enhancement Act of 
2016. He has done it with me and my Western colleagues, 
Senators Daines, Risch, Heller, and McCain. This bill is a 
collaboration of months of work between our offices, most of 
whom are members of the Senate Energy and Natural Resources 
Committee.
    At a time when water issues have made the forefront of the 
headlines in places like California and Flint, Michigan, the 
water supply needs of the West as a whole can be forgotten by 
those who did not live where we live. The bill that we 
introduced addresses the need of an abundant, consistent and 
clean supply of water for all of our communities. Most of these 
communities in the West are rural and they are agricultural-
based communities, as Pat O'Toole who is here from Wyoming 
clearly knows.
    Working families operate ranches and farms and depend on 
water for their livestock, to grow crops such as alfalfa and to 
feed herds of cattle. The water resources in the West have 
always been scarce and demands on the scarce supplies continue 
to increase.
    We have more people moving to the West to live, to work, 
and to raise their families. We have more regulations coming 
from Washington, putting restrictions on where water can go, 
sometimes in favor of species as opposed to working families.
    Weather events such as drought only make our water needs 
even greater.
    The proposals contained in S. 2902, the Western Water 
Supply and Planning Enhancement Act, seek to provide more water 
for our communities. The legislation includes bills that I have 
authored and introduced that will fix aging water 
infrastructure, such as: irrigation canals that serve our 
ranching communities; create efficiencies in federal permitting 
of new water storage through better coordination of federal 
agencies; compile the maintenance backlog of Bureau of 
Reclamation agency aging facilities, so Congress can actually 
begin to address them; and protect existing water rights from 
federal overreach for water users. There are many other 
provisions authored by my colleagues in the bill that are going 
to develop long-term water supplies and enhance the use of 
existing water supply infrastructure. I think it is important 
to note that the bill has $715 million in new authorization 
that is fully offset with $721 million in reduced mandatory 
spending. This is a very needed bill for the West and my home 
State of Wyoming, and I urge the Committee markup of this 
legislation occur soon, as quickly as possible.
    So I have a couple questions.
    One to Dan, if you could talk about how vital it is in 
terms of increasing water storage and maintaining aging federal 
irrigation structures for ranchers and farmers in the West and 
rural communities? And how does an economically strong, 
productive rural West benefit communities outside of the West?
    Mr. Keppen. I guess I will answer your last question first. 
The irrigated agriculture industry in the Western United 
States, which is comprised of growers and producers and 
implement dealers and food processors, is a $172 billion boost 
to our economy every year--and I mentioned this in testimony 
earlier today--because of that, in part, Americans spend less 
of their disposable income on food than anywhere on the planet. 
It is like 8 percent, compared to other countries that might be 
20 percent to 30 percent. As I understand it, I am not an 
economist, but I understand that consumer spending is a very 
important part of a healthy economy. So irrigated agriculture 
and the communities that they support in the West obviously are 
a big part of that.
    What we have seen in recent years, to get to your first 
question, Senator Barrasso, is we have expanding demand going 
on in other sectors. We have a growing population. We have 
different societal priorities placed on environmental needs. 
And when you look at the reality of how many dam projects that 
have been built or storage projects that have been built in the 
last 30 years, it has been almost nil. Metropolitan has done it 
in California. But if there is any kind of a federal nexus 
involved, it is very difficult because of the permitting 
issues.
    Unfortunately, what is happening is agricultural water is 
turning out to be the default reservoir to meet these other 
growing demands. That is a real concern.
    We have to feed the world. We have to continue to have a 
safe and secure food supply for our own country, and those 
things could be threatened at some point if we do not start 
creating storage to meet these other demands. Agriculture is 
not really the cause for expanding demands right now.
    Senator Barrasso. Commissioner Lopez, could you talk about 
how important it is that Congress address the maintenance 
backlog of Bureau of Reclamation reservoirs and the dams and 
other infrastructure in the West, to ensure that water supplies 
in the region are there in the decades to come?
    Mr. Lopez. Senator, thank you for that question.
    Reclamation has something like $100 billion worth of 
infrastructure that we operate and maintain. Quite a lot of 
that infrastructure is now over 50 years old, some of it is 
over 100 years old. So it is imperative that if we want to 
continue to maintain the benefits that we have gotten from this 
infrastructure, which have been vast, we have to continue to 
maintain it.
    Beyond that, it is the sort of infrastructure that, if it 
is not maintained, ultimately, it could create problems and 
safety hazards for our communities, so that is another reason.
    I thank you for your legislation and the Transparency Act 
that has really helped us focus our efforts on how we 
categorize infrastructure maintenance needs, and thank you for 
working with us on getting that. I think we are now on track so 
we can begin to develop that information.
    Senator Barrasso. Dan, one last question for you.
    In your written testimony, it says, ``There can be no doubt 
that these environmental laws have provided significant 
benefits to our society.'' You go on to say, ``But they also 
have been used as legal weapons to thwart new investments in 
Western water development, to reallocate existing water 
supplies away from traditional uses, and to destabilize water 
supply systems,'' and you go on to testify, ``often in pursuit 
of unattainable goals such as resurrecting past ecological 
conditions in a constantly changing environment.'' Can you give 
us an example or two of what you mean and what you have seen?
    Mr. Keppen. I will give you two.
    One briefly is Klamath where I live, Klamath Basin of 
Southern Oregon and Northern California.
    I guess I will elaborate more on the second example, which 
is really kind of the focus of what some of this legislation is 
all about, the Central Valley Project in California.
    We have seen essentially large amounts of water that were 
originally designed for irrigation purposes stored in the 
Central Valley Project facilities now being left to basically 
go out through the Golden Gate Bridge to benefit a couple of 
species protected under the Endangered Species Act, the Delta 
smelt and some salmon.
    Unfortunately, when you look at how those numbers are 
actually reacting, the population reacting to those actions, 
the numbers are actually declining. Really, the focus in Bay-
Delta management has been kind of on these export pumps that 
divert water out of the Delta to meet Southern California needs 
and Central Valley irrigation needs. We are not really seeing 
the results.
    That is probably the frustrating thing that we are seeing 
right now. The focus is on these irrigation diversions. The 
fish species they are intending to protect are not showing any 
signs of recovery whatsoever, so there are other stressors out 
there that we have to deal with. I would say, again, that is a 
prime example, because a lot of those decisions that are moving 
the water from agriculture into the ocean system are driven by 
litigation involving the Endangered Species Act.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Barrasso.
    Thank you all for your testimony today. Again, I apologize 
for the chaotic nature of some of these hearings when we have 
votes going on. I appreciate your indulgence.
    Obviously, drought and water issues are critical to the 
future of our states. I am hopeful that the Committee will 
build on the hearing today, as we build a West-wide drought 
bill that can pass not only this Committee, but the Senate 
floor as well. So thank you for your testimony. It will be very 
valuable for us.
    For the information of members, questions may be submitted 
for the record before the close of business on Thursday. The 
record will remain open for two weeks. We ask the witnesses to 
respond as promptly as possible to questions that are asked, 
and your responses will be made part of the record.
    Senator Flake. With the thanks of the Committee, this 
hearing stands adjourned.
    [Whereupon, at 3:47 p.m., the hearing was adjourned.]




                      APPENDIX MATERIAL SUBMITTED

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
